                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     The EPA Should Assess the
                     Utility of the Watch List as a
                     Management Tool
                     Report No. 13-P-0435               September 30, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Dan Engelberg
                                                   Khadija Walker
                                                   Tiffine Johnson-Davis
                                                   Genevieve Soule
                                                   Andre von Hoyer




Abbreviations

ECHO          Enforcement and Compliance History Online
EPA           U.S. Environmental Protection Agency
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of the Inspector General




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                          U.S. Environmental Protection Agency 	                                                  13-P-0435
                                                                                                          September 30, 2013
                          Office of Inspector General


                          At a Glance

Why We Did This Review                  The EPA Should Assess the Utility of the
We sought to determine                  Watch List as a Management Tool
how the U.S. Environmental
Protection Agency (EPA) uses             What We Found
the Watch List as a tool to
target enforcement actions and          According to the EPA, the Watch List is a management tool used to identify
whether there are opportunities         long-standing significant violations. However, through interviews, regional
for improvement.                        questionnaires, and data analysis, we found that:

Used by the EPA since 2004,                 Use of the Watch List differs among headquarters and regional enforcement
the Watch List is designed to                programs.
provide EPA regions and states              Trends in the number of facilities on the Watch List differ among
with a list of facilities that are in        enforcement programs.
significant violation of                    EPA staff suggest multiple opportunities for improvement in the Watch List.
environmental laws and that                 The public version of the Watch List has limited search capabilities and
appear not to have been                      information.
addressed by timely and
appropriate enforcement.                Without a proper assessment of the Watch List, the agency runs the risk of
The Watch List initially was            maintaining a management tool that does not assist in tracking facilities with long-
just used as an in-house                standing significant violations, has limited transparency and utility to the public,
management tool, but in 2011            and does not meet the needs of EPA users.
the EPA made its data
available to the public.                 Recommendations and Planned Agency Corrective Actions
This report addresses                   We recommend that the EPA Office of Enforcement and Compliance Assurance
the following EPA theme:                assess the Watch List’s utility as a management tool. If the agency determines
                                        that the tool is useful, it should:
  Embracing EPA as a high
   performing organization.                 Ensure that Watch List criteria are consistent with relevant enforcement
                                             response policies, and reassess criteria to determine relevance.
                                            Develop an approach for identifying and/or removing facilities on the list that
                                             have been referred elsewhere or are under a consent decree.
                                            Improve transparency of the publicly available Watch List to allow users to
                                             search and receive information similar to what is available internally.
                                            Identify and implement other improvements to the Watch List identified in
                                             the EPA’s assessment.
For further information,
contact our public affairs office
at (202) 566-2391.                      The agency agreed with the recommendation to assess the Watch List by
                                        September 30, 2014. If the agency decides to retain the list, it will act on the
The full report is at:                  remainder of the recommendations by December 30, 2014. The
www.epa.gov/oig/reports/2013/           recommendations are resolved with corrective actions pending.
20130930-13-P-0435.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                      THE INSPECTOR GENERAL




                                           September 30, 2013

MEMORANDUM

SUBJECT:	 The EPA Should Assess the Utility of the Watch List as a Management Tool
          Report No. 13-P-0435

FROM:	         Arthur A. Elkins Jr.

TO:            Cynthia Giles, Assistant Administrator
               Office of Enforcement and Compliance Assurance

This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report describes issues the OIG identified and
makes recommendations to address those issues. This report represents the opinion of the OIG and does
not necessarily represent the final EPA position. Final determinations on matters in this report will be
made by EPA managers in accordance with established audit resolution procedures.

Action Required

The report recommendations are resolved with corrective actions pending. Therefore, the agency is not
required to provide a final response to this report. However, if you choose to provide a final response,
we will post your response on the OIG’s public website, along with our memorandum commenting on
your response. You should provide your response as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov, or Director for
Water Issues Dan Engelberg at (202) 566-0830 or engelberg.dan@epa.gov.
Purpose
            The purpose of this review was to determine how the U.S. Environmental
            Protection Agency (EPA) uses the Watch List as a tool to target enforcement
            actions and whether there are opportunities for improvement.

Background

            In 2003, the assistant administrator for the Office of Enforcement and Compliance
            Assurance (OECA) requested that a tool be developed that would allow senior
            enforcement officials to track facilities that were in noncompliance with regulations
            (specifically, the Clean Air Act, Clean Water Act, and Resource Conservation and
            Recovery Act) without timely and appropriate enforcement actions. This request
            resulted in the implementation of the Watch List in 2004. The Watch List, one of
            several management tools used by the EPA enforcement programs, was designed to
            provide OECA and the EPA’s regions, as well as states, with a list of facilities that
            data indicate are in significant violation of these environmental laws and have not
            been addressed by timely and appropriate enforcement. The system identifies
            facilities as high-priority violators under the Clean Air Act or significant
            noncompliers under the Clean Water Act’s National Pollutant Discharge
            Elimination System and the Resource Conservation and Recovery Act.

            The Watch List contains a subset of violations identified under EPA enforcement
            response policies. The policies define when a violation of environmental laws and
            regulations becomes significant. This automated management tool is generated
            using compliance information from the EPA’s data systems, including the Air
            Facility System, the Integrated Compliance Information System–National
            Pollutant Discharge Elimination System (previously the Permit Compliance
            System), and the Resource Conservation and Recovery Act Information System
            (RCRAInfo). In 2011, in response to a Freedom of Information Act request, the
            EPA made a modified version of the Watch List available to the public on its
            Enforcement and Compliance History Online (ECHO) website; the Watch List
            had previously only been used as an in-house management tool.

Scope and Methodology

            We conducted this evaluation in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform our work to
            obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our evaluation objectives. We conducted our evaluation from February
            through August 2013.

            To answer our objective, we identified the laws, regulations, policies, procedures
            and guidance used by the EPA for enforcement. We also reviewed documents


13-P-0435                                                                                        1
            related to the EPA’s roles and responsibilities, oversight/management
            requirements, performance tracking and goals for the Watch List. We interviewed
            the EPA program and enforcement staff about data reliability. We interviewed
            agency officials and sent a questionnaire to staff in all 10 EPA regions to
            determine their use of the Watch List and the areas for which it could be
            improved. We also conducted an analysis of Watch List data to identify potential
            trends and anomalies for further discussion with OECA and the regions and
            comparison with agency information.

Results of Review
            According to OECA, the Watch List, which the agency has used for almost
            10 years, is a management tool to identify long-standing significant
            noncompliance. We found the use of the Watch List differs among headquarters
            and regional enforcement programs. Further, we observed that trends in the number
            of facilities on the Watch List differ among enforcement programs. Additionally,
            staff suggested multiple opportunities for improvement. We also found that the
            public version of the Watch List has restricted capabilities. Without a proper
            assessment of the Watch List, the agency runs the risk of maintaining a
            management tool that does not assist in tracking facilities without timely and
            appropriate enforcement actions. In its current state, the list also has limited
            transparency to the public and may not meet the needs of its users, potentially
            limiting its utility for public users.

            Enforcement Programs Utilize the Watch List Differently

            Information we gathered from interviews with headquarters and questionnaires
            sent to all 10 regions showed that some enforcement staff in regional program
            offices use the Watch List to assist in their daily work (e.g., tracking facilities to
            determine whether they have returned to compliance and/or proceeded to
            follow-up with the state), while others only use it as a part of quarterly meetings
            with states and/or EPA headquarters to update the data on the list. Interviews and
            questionnaires indicated that the following factors might have affected the level of
            utilization of the Watch List:

                	 Seven of 10 regions reported the availability of duplicative/alternate data
                   sources.
                	 Four of 10 regions and two headquarters program offices reported
                   facilities remaining on the Watch List that have been referred to other
                   offices/programs (such as the Department of Justice or the Superfund
                   program) or are under a consent decree.
                	 Three of 10 regions and one headquarters program office reported
                   inaccurate reporting and timeliness problems with the data.
                	 OECA headquarters and one region reported the Watch List not keeping
                   up with technological advancements or changes in criteria definitions
                   since it was created nearly a decade ago.


13-P-0435                                                                                        2
            Enforcement Programs Have Differing Trends in Watch List Data

            If the Watch List was an effective and key management tool for addressing
            facilities in longstanding noncompliance, we would expect to see some decreasing
            trends in the number of facilities on the list. However, our review of national
            Watch List data, pertaining to three acts (the Clean Air Act, Clean Water Act, and
            Resource Conservation and Recovery Act), from headquarters programs and all
            10 regions, showed different trends in the number of facilities on the Watch List
            from 2004 to 2013. Some regions had decreasing numbers of facilities on the
            Watch List in certain programs, others had increasing numbers, and others
            showed no obvious pattern of increase or decrease. The information gathered
            through interviews with OECA and questionnaires sent to the regions cited
            several reasons for the differences. They included states not reporting in a timely
            manner or having data entry issues, interface issues resulting from the switch
            from the Permit Compliance System to the Integrated Compliance Information
            System–National Pollutant Discharge Elimination System, and states or the
            agency not updating status codes timely and appropriately. Since most of the
            reasons cited were data quality issues, it is possible that, absent these issues, the
            trends would look different. Therefore, we are not able to draw a conclusion from
            the data about whether the Watch List has assisted EPA in addressing long-term
            noncompliance.

            Headquarters and Region Staff Identified Opportunities for
            Improvement

            Through interviews and regional questionnaires, Watch List users identified
            opportunities for improvement, including the following:

                  Incorporate a Watch List status in the ECHO facility search outputs
                   (e.g., a “Watch List” column).
                  Create an efficient process to identify and/or remove facilities that are on
                   the list in error or that the agency has referred to other programs or have
                   been placed under a consent decree.
                  Ensure that criteria on the Watch List match the criteria in the relevant
                   enforcement response policy.
                  Finalize Clean Water Act criteria.
                  Add the Safe Drinking Water Act to the Watch List
                  Allow OECA and regions to create region-specific “Watch Lists” based on
                   mutually determined criteria while continuing to identify violations that
                   meet overall Watch List criteria.
                  Initiate Web-based quarterly reporting to accept status codes and
                   explanations from the regions.
                  Make the data on Watch List real time.
                  Enhance the Watch List standard operating procedures.
                  Add additional status codes that better describe the status of the current
                   situation of a facility (make codes more specific).


13-P-0435                                                                                      3
            Publicly Available Watch List Lacks Many of the Features and
            Information Available Internally

            The Watch List capabilities on the public website (ECHO) are very different from
            those of the internal Watch List. The public site does not provide users with the
            ability to search the Watch List to return only information that they are interested
            in. In addition, the information provided is in a “PDF” format and therefore
            cannot be easily sorted or analyzed by users, decreasing the utility of the list.
            The public Watch List provides limited information – only facility name, ID and
            location. The internal Watch List tool (available through the Online Tracking
            Information System) provides a substantial amount of additional enforcement
            information that allows the user to put the Watch List designation into context
            with the facility’s enforcement history. Given the agency’s long-stated goal of
            transparency, the information available to the public should contain all
            information that is not deemed enforcement sensitive.

Conclusion

            Given the initial reasons for the Watch List implementation, its current differing
            use among regions, and differing data trends, the EPA should determine whether
            the Watch List is still a useful management tool. Our review identified
            opportunities for improvement, including updating and reviewing its approach for
            listing facilities to ensure transparency and accuracy of information as well as the
            public utility of the information. OECA is currently modernizing its enforcement
            data system, which is scheduled to be completed by the end of fiscal year 2013.
            We believe this is an opportune time for OECA to make changes to the Watch
            List should that be its decision.

Recommendation
            We recommend that the assistant administrator, Office of Enforcement and
            Compliance Assurance:

               1.	 Assess the Watch List’s utility as a management tool in assisting the
                   agency in monitoring long-standing alleged significant violators. If the
                   agency determines that the tool is useful, it should:

                       a.	 Ensure that Watch List criteria are consistent with relevant
                           enforcement response policies and reassess the criteria to
                           determine relevance.

                       b.	 Develop an approach for identifying and/or removing facilities on
                           the list that have been referred to other offices/programs or are
                           under a consent decree.




13-P-0435                                                                                      4
                      c.	 Improve transparency of the publicly available Watch List to allow
                          users to query and receive information similar to what is available
                          through internal data systems.

                      d.	 Identify and implement other improvements to the Watch List
                          identified in the EPA’s assessment.

Agency Comments and OIG Evaluation

            The agency agreed with the recommendation to assess the Watch List by
            September 30, 2014. OECA intends to assess the overall appropriateness and
            utility of the Watch List as a multi-media tool as it revises some of the media-
            specific compliance and enforcement policies. In follow-up communications with
            OECA staff, we were told that if OECA decides to retain the Watch List, it will
            implement the remainder of the recommendations by December 30, 2014. The
            recommendations are resolved with corrective actions pending.




13-P-0435                                                                                   5
                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                               POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1        Action Official           Date      Amount      Amount

     1        4     Assess the Watch List’s utility as a management           O        Assistant Administrator,    9/30/14
                    tool in assisting the agency in monitoring long-                  Office of Enforcement and
                    standing alleged significant violators. If the agency              Compliance Assurance
                    determines that the tool is useful, it should:
                      a. Ensure that Watch List criteria are consistent       O                                    12/30/14
                         with relevant enforcement response policies
                         and reassess the criteria to determine
                         relevance.
                      b. Develop an approach for identifying and/or           O                                    12/30/14
                         removing facilities on the list that have been
                         referred to other offices/programs or are
                         under a consent decree.
                      c. Improve transparency of the publicly                 O                                    12/30/14
                         available Watch List to allow users to query
                         and receive information similar to what is
                         available through internal data systems.
                      d. Identify and implement other improvements            O                                    12/30/14
                         to the Watch List identified in the EPA’s
                         assessment.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0435                                                                                                                                             6
                                                                                        Appendix A

                                  Agency Response


                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460

                                                                                          OFFICE OF
                                                                                      ENFORCEMENT AND
                                                                                   COMPLIANCE ASSURANCE


                                             July 25, 2013

MEMORANDUM

SUBJECT:	 Comments on “Quick Reaction Report: The EPA Should Assess the Utility of the
          Watch List as a Management Tool”


FROM:	         Cynthia Giles, Assistant Administrator

TO:	           Carolyn Copper, Assistant Inspector General
               Office of Program Evaluation

Thank you for the opportunity to review the Office of Inspector General (OIG) “Quick Reaction
Report: The EPA Should Assess the Utility of the Watch List as a Management Tool”. We agree
that it is an opportune time to discuss the utility of the Watch List as a management tool in
assisting the Agency in monitoring long-term alleged significant violators.

We are currently in the process of revising some of the media-specific compliance and enforcement
policies. As part of this process, we can better assess the overall appropriateness and utility of the
Watch List as a multi-media management tool, As we are conducting this assessment, we will keep
in mind the findings and initial recommendations of the OIG and commit to the following corrective
action:

Recommendation                 Lead Office       CA     Target Date         Corrective Action

Assess the Watch List’s        OC/OCE            1      9/30/2014           Evaluate the utility of the
Utility as a management                                                     the Watch List as a
tool.                                                                       Management tool, and
                                                                            identify appropriate next
                                                                           steps.

If you have any questions regarding this response, please contact Gwendolyn Spriggs, the OECA
Audit Liaison, at 202-564-2439.



13-P-0435                                                                                                7
cc:   L
      	 isa Lund
      Susan Shinkman
      Mamie Miller
      Lauren Kabler
      Gwendolyn Spriggs




13-P-0435                 8
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Air and Radiation




13-P-0435                                                                              9
